No.

In the Supreme Court of the United States
LEE WENDELL LODER, PETITIONER
v.
ICEMAKERS, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

LEE WENDELL LODER
Attorney For Petitioner
Loder, PC,
P.O. Box 13545
Birmingham, AL 35202
lloder@loderpc.com
(205) 326-0566

QUESTION PRESENTED

Federal courts must protect its jurisdiction. Debtors
who seek to mutually resolve claims of
dischargeability should be permitted to at the same
time liquidate the debt. The court of appeals held that
the petitioner’s consent, money judgment liquidating
said debt was not a judgment but, instead, only a
determination deeming that said underlying debt was
non-dischargeable. The appellate court determined
that the bankruptcy court’s jurisdiction to create a
money judgment did not exist. The question presented
is: Whether a bankruptcy court has the jurisdictional
authority to render a liquidated money judgment at the
same time that it determines a debt to be nondischargeable? All other circuits that have addressed
this issue have answered in the affirmative and the
Petitioner concurs. The Eleventh Circuit opinion
creates a conflict among the circuits.

I

PARTIES TO THE PROCEEDING

Petitioners (appellant-debtor below) is Lee Wendell
Loder.
Respondent (creditor-appellee below) is Icemakers,
Inc.
RELATED PROCEEDINGS

United States Bankruptcy Court (ALNB):
Loder vs. Icemakers, Inc, et. al, No. 17-000058-DSC
United States District Court (ALND):
Loder vs. Icemakers, No. 2:20-cv-01372-LSC

II

TABLE OF CONTENTS

Page
Opinions below ................................................................................1
Jurisdiction ................................................................................. 1
Split among Circuits ................................................................... 2
Statement ............................................................................... 2
Reasons for granting the petition ......................................... ..2
A. The court of appeals erred in ruling that the
parties cannot create an enforceable federal
money judgment in bankruptcy
court………………………………………….3
B. The court of appeals’ decision that the bankruptcy
judgment did not discharge the state judgment was in
error ............................................................................... .3
Conclusion .....................................................................................3
Appendix A — Bankruptcy Consent Judgment (October 15,
2007) ......................................................................................... 1a
Appendix B — Bankruptcy Ruling (September 14,
2017)………………………………….……………………..3a
Appendix C — District Court Order and Memorandum Opinion
(February 27, 2019) ................................................................ .5a
Appendix D — Court of Appeals Ruling (February 25, 2020)
................................................................................................... ..18a
Appendix E – Court of Appeals Ruling En Banc (July 23,
2020)…………………………………………………………....24a
TABLE OF AUTHORITIES

Cases:
Brown v. Clarke, 45 US 4, 11 L.Ed. 850 (1846)…………..3
In Re Gomez, 08-00129-PCW13 (Bkrptcy. Ct. Washington)........3
In re Morrison, 555 F.3d 473, 479 (5th Cir. 2009)......................3
In re Neves, 11-24505-CIV-MARRA...........................................3
In re Ribesell , 586 F.3d 782, 793 (10th Cir. 2009)......................3
In re Sasson, 424 F.3d 864, 874 (9th Cir. 2008)...........................3
In re Ungar , 633 F.3d 675, 680 (8th Cir. 2011)...........................3
Statutes:
28 U.S.C. § 157(b)(2)(I)………………………………………..1, 3
28 U.S.C. § 1334………………………………………………..1, 3

III

In the Supreme Court of the United States
No.
LEE WENDELL LODER,
ET AL., PETITIONER
v.
ICEMAKERS, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Attorney Lee Wendell Loder, on behalf of himself,
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Eleventh Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 18a)
is unpublished. The order of the district court (App.,
infra, 5a) is unpublished. The orders of the bankruptcy
court are unpublished. (App., infra, 1a, 3a)
JURISDICTION

The judgment of the court of appeals was entered on
February 25, 2020. A petition for rehearing was denied
on July 23, 2020 (App., infra, 24a). The jurisdiction of
this Court is invoked under 28 U.S.C. 1254(1).
1

JURISDICTIONAL SPLIT AMONG CIRCUITS

28 U.S.C. § 157(b)(2)(I) and 28 U.S.C. § 1334
provide bankruptcy courts with the authority to liquidate
a money judgment simultaneously with a determination
of dischargeability.
STATEMENT

The creditor filed a complaint in the state court for
simple breach of contract claims on June 8, 2006 in the
matter of Ice Makers vs. Lee Loder, et. al., DV 06-3683 in
the District Court Civil Court in Jefferson County,
Alabama, Birmingham Division. App. 5a A consent
judgment (“state judgment”) was executed against the
debtor on February 28, 2007. Id. The debtor filed a
Chapter 7 action on March 19, 2007. Id. at 5a The creditor
filed a Complaint for Non-Dischargeability in the
bankruptcy court on June 18, 2007 and for the first-time
alleged willful conduct presumably to secure a nondischargeable judgment. App. 6a The debtor was
discharged on August 16, 2007. Id. at 6a The parties
entered into a consent, liquidated federal judgment
intended to replace the state judgment in toto. Id. at 6a On
October 10, 2013, the creditor sought to collect on the
new, replacement federal bankruptcy judgment by issuing
garnishment process through this court App. at 5a, 6a The
creditor also tried to garnish the state judgment in state
court. App. at 5a, 6a The debtor filed an action in the
bankruptcy court to determine that the state judgment was
discharged by operation of law and that the creditor
violated the stay by attempting to collect the same. Id. at
6a The bankruptcy court, district court and Eleventh
Circuit all determined that there could not have been and
was not an enforceable federal money judgment in
bankruptcy court. App. 3a, 5a, 18a
REASONS FOR GRANTING THE PETITION

In this case, the petitioner only asks the Court to
enforce and recognize its own authority. The court of
appeals reached its conclusions only by disregarding its
own statutory grant of power and authority, bankruptcy
statutory authority and Supreme Court precedent.
The decision of the court of appeals warrants this
Court’s review. By ignoring its own authority, it
diminishes and undermines the court’s statutory grant of
jurisdiction. The result of the court of appeals’ novel
ruling will be to jeopardize the sovereignty of federal
courts and undermine their statutory grant of authority.
A. The Court Of Appeals Erred By Deciding That
Bankruptcy Court Could Not Enter A Final Money
Judgment In Conjunction With A Decision
2

Regarding Dischargeability.
Judge Cohen’s order reducing said debt to a
federal judgment was proper and well within the
bankruptcy court’s jurisdiction. App. 1a The Eighth
Circuit “agree[d] with the determinations of the other
circuits that have addressed this issue and unanimously
concluded a " bankruptcy court, in addition to declaring
a debt non-dischargeable, has jurisdiction to liquidate
the debt and enter a monetary judgment against the
debtor.” See 28 U.S.C. § 157(b)(2)(I); 28 U.S.C. §
1334; In re Ungar , 633 F.3d 675, 680 (8th Cir.
2011);see also In re Ribesell , 586 F.3d 782, 793 (10th
Cir. 2009); In re Morrison, 555 F.3d 473, 479 (5th Cir.
2009); In re Sasson, 424 F.3d 864, 874 (9th Cir.
2008)]; In re Neves, 11-24505-CIV-MARRA. The
Eleventh Circuit’s failure to recognize the bankruptcy
court’s jurisdiction to create the petitioner’s federal
money judgment creates a split among circuits as all
the other federal circuits that have addressed this issue
have held that bankruptcy courts do have the statutory
authority to enter a money judgment against a debtor
on a non-dischargeable debt. Hence, the lower court’s
finding that the federal judgment could not have been a
replacement money judgment because the court had no
jurisdiction to enter said money judgment is not
supported by existing law. Given this split, this Court
must act on this extremely important jurisdictional
question to both creditors and debtors and the decision
below should be reversed.
B. The Court of Appeals’ Finding That The
Creation Of The Liquidated Federal Bankruptcy
Judgment Did Not Discharge The State Judgment By
Operation Of Law Was Wrong And Violated This
Court’s Precedent
There was no dispute that the parties intended to create
a federal liquidated judgment and replace the state
judgment with the same. The legal effect of seeking the
liquidated federal judgment served to discharge the
unvetted state court judgment. See In Re Gomez, 0800129-PCW13 (Bkrptcy. Ct. Washington) This Court
affirmed this principle of law when it held that “the law
will not permit two judgments to exist at the same time
against the same person for the same debt, this judgment,
by operation of law, necessarily extinguishes the
former.” Brown v. Clarke, 45 US 4, 11 L.Ed. 850 (1846)
Brown is binding precedent that all lower courts have
ignored. Consequently, the lower court’s validation of
the state court judgment was in error and should be
reversed by this court.
3

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted.
LEE WENDELL LODER
Attorney For Petitioner

OCTOBER
2020

4

1a

APPENDIX A
UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
Case No.: 07-1261-BGC7

In Re: Lee Wendell Loder, Debtor

Case No.: AP-07-143-BGC
ICEMAKERS, PLAINTIFF
v.
LEE WENDELL LODER, DEFENDANT
Filed: October 15, 2007
ORDER OF CONSENT JUDGMENT
THIS ACTION coming before the Court on the
settlement by Plaintiff Icemakers, Inc., and Defendant Lee
Loder, to resolve the dispute which gave rise to the cause
of action herein, and upon considering the pleadings filed
in this action, it is hereby:
ORDERED, ADJUDGED and DECREED that this
Court approves the following settlement:
1)

Plaintiff claims Defendant is indebted to it in the amount
of $5,652.22, consisting of $2,520.00 in unpaid rentals
fees, plus $920.00 in payment of the subject equipment,
$357.30 in interest accrued through the date of the filing
of the complaint, a reasonable attorneys' fee in the amount
of $1,614.92 pursuant to the contract between the parties,
and state court costs of $ 240.00, plus the costs of this
action, and that such amount is non-dischargeable
pursuant to the provisions of 11 U.S.C. §523(a)(6).

2)

The parties, knowing of the costs and uncertainties of
litigation, have entered into this Consent Judgment to
settle their dispute.

3)

Defendant agrees to the entry of a consent judgment

against him in the amount of

$5,652.22, with waiver of exemptions, such debt and
judgment being non-dischargeable pursuant to the
provisions of 11 U.S.C. §523(a)(6).
It is therefore, ORDERED, ADJUDGED and
DECREED, that a judgment is hereby entered against Lee
Loder in the amount of $5,652.22 and that said judgment
is non-dischargable pursuant to the provisions of 11
U.S.C. §523(a)(6).
The Clerk is directed to close this adversary proceeding
after ten days from the date of this Order.
Dated: October 15, 2007

/s/Benjamin Cohen
BENJAMIN COHEN
United States Bankruptcy

Judge
This order prepared by:
Walter McArdle
205-581-6295

2a

APPENDIX B
UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
Case No.: 07-1261-BGC7

In Re: Lee Wendell Loder, Debtor

Case No.: AP-07-143-BGC
ICEMAKERS, PLAINTIFF
v.
LEE WENDELL LODER, DEFENDANT
Filed: September 14, 2017
ORDER GRANTING THE MOTION FOR
SUMMARY JUDGMENT FILED BY ICEMAKERS,
INC.
D. SIMS CRAWFORD
United States Bankruptcy Judge
This Court held a hearing on Wednesday, August 23,
2017 at 9:30 a.m. regarding the following matters:
1) Doc. No. 53: Defendant's Motion for Summary
Judgment on the Issue of Liability for Violation of the
Discharge Injunction.
2) Doc. No. 72: Plaintiff’s Motion for Summary
Judgment.
This Court has jurisdiction under 28 U.S.C. §§ 157(a) and
1334(b), and the General Order of Reference issued by the
United States District Court for the Northern District of
Alabama on July 16, 1984, as amended on July 17, 1984.
This is a core proceeding under 28 U.S.C. § 157(b)(2).
This is a final order pursuant to Rule 54(b) of the Federal
Rules of Civil Procedure.
This Court stated its findings of fact and conclusions of
law on the record in this case on September 14, 2017
3a

pursuant to Rule 7052 of the Federal Rules of Bankruptcy
Procedure.
Pursuant to Rule 7056 of the Federal Rules of Bankruptcy
Procedure, this Court finds that the Defendant, Lee
Wendell Loder, has not met his burden of proof, while the
Plaintiff, Icemakers, Inc., has met its burden of proof, on
the issue of whether the actions of Icemakers, Inc.
constituted a willful violation of the discharge injunction
in Mr. Loder’s Chapter 7 case under 11 U.S.C. §
524(a)(2).
This Court further finds that there is no genuine dispute as
to any material fact, and the
Plaintiff, Icemakers, Inc., is entitled to judgment as matter
of law.
Consistent with this Court’s findings and conclusions as
stated on the record, it is hereby ORDERED,
ADJUDGED, and DECREED that Lee Wendell Loder’s
Motion for Summary Judgment on the Issue of Liability
for Violation of the Discharge Injunction is DENIED.
Icemakers, Inc.’s Motion for Summary Judgment is
GRANTED.
Mr. Loder’s Motion for Contempt and Sanctions for
Violation of the Bankruptcy Discharge (Doc. No. 46) is
DENIED with prejudice.
Mr. Loder’s First Restated and Amended Motion for
Contempt and Sanctions for Violation of the Bankruptcy
Discharge (Doc. No. 71) is DENIED with prejudice.
Dated: September 14, 2017

/s/ D. Sims Crawford
D. Sims Crawford
United States

Bankruptcy Judge

4a

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTERN DISTRICT OF ALABAMA
Case No.: 2:18-cv-00812-LSC
LEE WENDELL LODER, APPELLANT
v.
ICEMAKERS, INC.
Filed: February 27, 2019
MEMORANDUM OF OPINION AND ORDER
L. SCOTT COOGLER
United States District Judge
Appellant Lee Loder (“Loder”) appeals the Bankruptcy
Court’s order granting summary judgment in the favor of
the Appellee Icemakers, Inc. (“Icemakers”) and denying a
number of motions filed by Loder. Loder has also filed a
motion to strike Icemakers’ brief for failure to comply
with the Bankruptcy Rules of Procedure. (See Doc. 9.) For
the reasons stated more fully herein, Loder’s motion to
strike (doc. 9) is due to be denied, and the Bankruptcy
Court’s ruling is due to be affirmed.
I.

BACKGROUND
On June 8, 2006, Icemakers filed suit against Loder and
his business, WAKA, LLC d/b/a Wingout Express
(“WAKA”), in the District Court of Jefferson County,
Alabama. On February 28, 2007, the parties settled that
suit, and Loder agreed to a consent judgment being
entered against him. On March 19, 2007, Loder and his
wife filed a Chapter 7 bankruptcy petition. Three days
later, on March 22, 2007, the state court entered the
consent judgment against Loder in the amount of
$5,652.22 plus $296.00 in court costs. Subsequently,
Icemakers was listed as a creditor on Schedule F of the
Loders’ bankruptcy petition. The bankruptcy trustee filed
a report of no distribution, on April 24, 2007. (See Doc. 12 at 5; Bankr. Doc. 41.) On June 18, 2007, Icemakers filed
5a

an adversary proceeding against Loder. The adversary
proceeding sought the nondischargeability of the debts
Loder owed Icemakers. See Icemakers, Inc. v. Lee
Wendell Loder (In re Loder), Adv. Proc. No. 07-00143DSC. Loder and his wife received a Chapter 7 discharge,
on August 16, 2007. (See Doc. 1-2 at 6; Bankr. Doc. 49.)
Because of Icemakers’ adversary proceeding against
Loder, its debt was not discharged. The parties then agreed
to the entry of a consent judgment under 11 U.S.C. §
523(a)(6) against Loder. The consent judgment provided
that a nondischargeable judgment would be entered
against Loder in the amount of $5,652.22. (Doc. 6-1 at 2;
Adv. Proc. Doc. 8.)
On December 5, 2007, the state court issued a certificate
of judgment in the amount of $5,652.22 plus $296.00 in
court costs against Loder. (Doc. 6-1 at 38; Adv. Proc. Doc.
53-2 Ex. B1.) In October 2013, Icemakers attempted to
collect on Loder’s debt by issuing a process of
garnishment in the adversary proceeding. (Doc. 6-1 at 3;
Adv. Proc. Doc. 10.) On June 30, 2014, Icemakers filed a
motion to reopen the adversary proceeding. Ultimately,
Icemakers withdrew its motion to reopen and filed a writ
of garnishment in state court.
In September 2015, the state court entered an order noting
that the parties had agreed to discovery without the
involvement of the state court. No further action occurred
in the state court case until Icemakers filed a motion to
revive the state court judgment, on May 2, 2017. (See
Doc. 6-1 at 39–67; Adv. Proc. Doc. 53-4.) In response,
Loder filed a motion for contempt and sanctions in the
adversary proceeding, alleging that Icemakers’ attempt to
collect on the state court judgment violated the bankruptcy
discharge. (See Adv. Proc. Doc. 46.) Loder later amended
this motion and filed a motion for summary judgment on
the issue of Icemakers’ liability. (See Adv. Proc. Docs. 53
& 71.) Icemakers filed a cross-motion for summary
judgment. (See Adv. Proc. Doc. 72.)
On September 14, 2017, the Bankruptcy Court entered an
order granting Icemakers’ motion for summary judgment
and denying a number of motions filed by Loder. (See
Doc. 6-2 at 63–64; Adv. Proc. Doc. 140.) The Bankruptcy
Court’s ruling was based on its finding that Icemakers’
actions did not constitute a willful violation of the
discharge injunction. (See Doc. 3-5.) On September 27,
6a

2017, Loder filed both a notice of appeal of the
Bankruptcy Court’s order and a motion for reconsideration
of that same order. (See Doc. 1-1 at 17.) On October 3,
2017, Loder’s notice of appeal was docketed in this Court.
(See id.) However, because the Bankruptcy Court had yet
to rule on Loder’s motion for reconsideration, this Court
found that it lacked jurisdiction over Loder’s appeal and
remanded this action to the Bankruptcy Court so that it
could rule on Loder’s motion. (See Doc. 17 in Lee
Wendell Loder v. Icemakers, Inc., No. 2:17-cv-01696-LSC
(N.D. Ala. Apr. 6, 2018).) Upon remand, the Bankruptcy
Court denied Loder’s motion for reconsideration, Loder
timely appealed, and this case is once again before this
Court.
II.

STANDARD OF REVIEW
A district court assumes the role of an appellate court
when reviewing the decision of a bankruptcy court. See 28
U.S.C. § 158(a). This Court reviews a bankruptcy court’s
grant of summary judgment de novo, “applying the same
summary judgment legal standard applicable in the
Bankruptcy Court and viewing all evidence and
reasonable inferences in favor of the non-moving party.”
In re Weeks Landing, LLC, 439 B.R. 897, 911 (M.D. Fla.
2010); see also In re Optical Technologies, Inc., 246 F.3d
1332, 1335 (11th Cir. 2001) (“[B]oth the district court and
this Court review a bankruptcy court’s entry of summary
judgment de novo.”).
Summary judgment is appropriate “if the movant shows
that there is no genuine dispute as to any material fact1
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). A dispute is genuine if “the record
taken as a whole could lead a rational trier of fact to find
for the nonmoving party.” Hickson Corp. v. N. Crossarm
Co., Inc., 357 F.3d 1256, 1260 (11th Cir. 2004). A
genuine dispute as to a material fact exists “if the
nonmoving party has produced evidence such that a
reasonable factfinder could return a verdict in its favor.”
Greenberg v. BellSouth Telecomms., Inc., 498 F.3d 1258,
1263 (11th Cir. 2007) (quoting Waddell v. Valley Forge
Dental Assocs., 276 F.3d 1275, 1279 (11th Cir. 2001)). In
making a motion for summary judgment, “the moving
7a

party has the burden of either negating an essential
element of the nonmoving party’s case or showing that
there is no evidence to prove a fact necessary to the
nonmoving party’s case.” McGee v. Sentinel Offender
Servs., LLC, 719 F.3d 1236, 1242 (11th Cir. 2013).
Although trial courts must use caution when granting
motions for summary judgment, “[s]ummary judgment
procedure is properly regarded
1 A material fact is one that “might affect the outcome of
the case.” Urquilla-Diaz v. Kaplan Univ., 780 F.3d 1039,
1049 (11th Cir. 2015).
not as a disfavored procedural shortcut, but rather as an
integral part of the Federal Rules as a whole.” Celotex
Corp. v. Catrett, 477 U.S. 317, 327 (1986). This standard
does not change when a court is presented with crossmotions for summary judgment. See Griffis v. Delta
Family-Care Disability, 723 F.2d 822, 824 (11th Cir.
1984).
DISCUSSION

III.

The Bankruptcy Court ruled in favor of Icemakers due to
its determination that Icemakers’ attempts to collect on the
state court judgment did not violate the Bankruptcy
Court’s discharge injunction. A discharge in bankruptcy
“operates as an injunction against the commencement or
continuation of an action, the employment of process, or
an act, to collect, recover, or offset any such debt as a
personal liability of the debtor ” 11
U.S.C. § 524(a)(2). “But that injunction prohibits
collection only with respect to dischargeable debts and
does not apply to nondischargeable debts.” United States
v. White, 466 F.3d 1241, 1246 (11th Cir. 2006). Thus, the
key issue on appeal is whether the debt Icemakers was
attempting to collect had been rendered nondischargeable.
A.

Jurisdiction
As a threshold matter, the Court must address Icemakers’
contention that the Bankruptcy Court lacked subject
matter jurisdiction over Loder’s motion for contempt and
8a

sanctions and, in turn, this Court lacks jurisdiction to
entertain this appeal. Bankruptcy courts, like all federal
courts, are courts of limited jurisdiction. See Celotex Corp.
v. Edwards, 514 U.S. 300, 307 (1995). 28 U.S.C. § 1334
grants federal district courts (and through referral
bankruptcy courts) jurisdiction over “all civil proceedings
arising under title 11, or arising in or related to cases
under title 11.” See 28 U.S.C. § 1334(b). The Bankruptcy
Court found that it had jurisdiction to rule on Loder’s
motion because it involved matters concerning the
administration of a bankruptcy estate, which is a core
bankruptcy proceeding. (See Doc. 3-5 at 9 (citing 28
U.S.C. § 157(b)(2)(A).)
The Court agrees that the Bankruptcy Court had the
authority to hear Loder’s claims. “Bankruptcy judges, like
district judges, have the power to coerce compliance with
injunctive orders.” See Alderwoods Grp., Inc., v. Garcia,
682 F.3d 958, 966 (11th Cir. 2012). A bankruptcy court
may impose sanctions for violations of its discharge
injunction under either its inherent or statutory powers.
See In re McLean, 794 F.3d 1313, 1319–20 (11th Cir.
2015) (citing 11 U.S.C. § 105(a)). In fact, “[i]t is settled
that ‘the court that issued the injunctive order alone
possesses the power to enforce compliance with and
punish contempt of that order.’” Id. at 1318–19 (quoting
Alderwoods, 682 F.3d at 970). Because “the purpose of a
court’s contempt power is in part to ‘ensur[e] that the
Judiciary has a means to vindicate its own authority,’ not
simply to enforce rulings in individual proceedings,” a
bankruptcy court has jurisdiction to enforce a discharge
injunction issued by that court under a different case
number. See id. at 1319 (quoting Young v. United States ex
rel. Vuitton et Fils S.A., 481 U.S. 787, 796 (1987)).
Here, Loder’s motion for contempt and sanctions was
brought before the same court that issued the discharge
injunction in his Chapter 7 case. Although the discharge
injunction was issued in the main bankruptcy case and
Loder’s motion was filed in the adversary proceeding, this
did not affect the Bankruptcy Court’s jurisdiction over
Loder’s motion. Moreover, Loder’s motion asked the
Bankruptcy Court to find Icemakers in contempt of the
discharge injunction and to sanction Icemakers for this
violation. (See Doc. 6-2 at 87.) If the Bankruptcy Court
had found Icemakers in violation of the discharge
9a

injunction, it would have been within that court’s power to
grant Loder his requested relief. Thus, the Bankruptcy
Court had jurisdiction to entertain Loder’s motion, and
this Court has jurisdiction to hear this appeal.2

2 The Court does note, however, that it was procedurally
improper for Loder to file his motion for contempt and
sanctions in the adversary proceeding. Civil contempt
sanctions for the violation of a discharge injunction should
be sought in a contested matter rather than an adversary
proceeding. See In re McLean, 794 F.3d at 1326.
Nonetheless, because the Eleventh Circuit has stated that
this type of procedural defect does not constitute
reversible error, the Court will proceed to the merits of
this dispute. See id.
B.

Effect of Bankruptcy Court Consent Judgment
The threshold merits issue this Court must decide is what
effect the Bankruptcy Court consent judgment had on the
prior state court consent judgment. The Bankruptcy Court
found that “the Bankruptcy Court judgment did not
replace the state court judgment,” but instead, “included a
determination by agreement that the debt owed by Mr.
Loder to Icemakers was nondischargeable.” (See Doc. 3-5
at 24.) Loder contends that the Bankruptcy Court erred
because the Bankruptcy Court judgment was intended to
serve as a replacement money judgment.
The Court agrees with the Bankruptcy Court that the only
effect of the Bankruptcy Court judgment was to render the
debt Loder owed Icemakers nondischargeable. It did not
replace the state court judgment with a new money
judgment. As the Bankruptcy Court noted, the facts of this
case are similar to those in In re Heckert, 272 F.3d 253
(4th Cir. 2001), where the Fourth Circuit found that a
bankruptcy court could not alter the amount of a state
court judgment in a dischargeability proceeding. In that
case, the bankruptcy court modified a nondischargeable
state court judgment by determining that the debt owed
should earn a federal rather than state interest rate. See id.
at 256. The Fourth Circuit held that the bankruptcy court
10a

erred because its modification of the state court judgment
violated the full faith and credit statute, 28 U.S.C. § 1738.
See id. at 260. The court reasoned that the bankruptcy
court’s order had the effect of changing the amount of
debt owed, which impermissibly allowed the relitigation
of the underlying state court case. See id. at 258–59. As
the court noted, allowing any relitigation of the state court
case was barred under the principles of res judicata. See
id. at 259.
This Court finds the reasoning of the Fourth Circuit to be
persuasive and agrees that the Bankruptcy Court could not
replace the state court judgment with a federal money
judgment. While several of the cases cited by Loder
provide that bankruptcy courts generally have jurisdiction
to liquidate a debt in a dischargeability proceeding and
enter a money judgment, these cases did not concern
nondischargeability claims where there was a preexisting
judgment. See, e.g., In re Ungar, 633 F.3d 675, 679– 80
(8th Cir. 2011); In re Morrison, 555 F.3d 473, 479 (5th
Cir. 2009); In re
Riebesell, 586 F.3d 782, 793 (10th Cir. 2009). Moreover,
as the Bankruptcy Court stated, the facts of In re Sasson,
424 F.3d 864 (9th Cir. 2005), are distinguishable. In that
case, the Ninth Circuit found that the bankruptcy court had
the authority to enter a money judgment in conjunction
with its nondischargeability order even though there was a
preexisting state court judgment. See id. at 875. However,
the court’s ruling was based on its determination that the
parties were litigating different claims in bankruptcy court
than they had litigated in state court. See id. at 873. The
court found that the adversary proceeding was based on
the debtor’s “willful and malicious post-judgment
conduct, not the contractual breach that formed the basis
of the state court judgment.” Id. Thus, although the court
reasoned that “if there are no new issues, the bankruptcy
court should ordinarily decline to allow the parties to
relitigate the debt amount,” it held that based on the facts
of that case the bankruptcy court’s entry of a separate
money judgment was permissible. See id. at 872, 875.
Here, the Bankruptcy Court judgment and the state court
judgment were based upon the same facts. (Compare Adv.
Proc. Doc. 53-3 at 1 with Adv. Proc. Doc. 8 at 1–2.) They
both provided that Loder owed Icemakers
11a

$2,520.00 in unpaid rental fees, $920.00 in payment of the
subject equipment, $357.30 in accrued interest, reasonable
attorney’s fees in the amount of $1,614.92, and state court
costs of $240.00. (See id.) Although Loder correctly notes
that the state court judgment was not mentioned in the
bankruptcy judgment, it is clear that the two judgments
concerned the same dispute. Moreover, contrary to
Loder’s assertion, the fact that the state court judgment
included no finding that Loder’s actions amounted to
willful conduct does not mean that the state court
judgment was based on different issues than those
litigated in the Bankruptcy Court. Icemakers presented no
new claims to the Bankruptcy Court. Instead, it claimed in
both courts that Loder defaulted on a lease agreement with
Icemakers and refused to allow Icemakers to regain
possession of its equipment. Under the Bankruptcy Court
consent judgment, the parties agreed that these actions
constituted willful and malicious conduct on the part of
Loder. Thus, the debt was nondischargeable. See 11
U.S.C. § 523(a)(6) (providing that a debtor is not
discharged from debt “for willful and malicious injury by
the debtor to another entity or to the property of another
entity”).
Because the debt amount was calculated in a final
judgment entered by the state court, the parties were
precluded from relitigating the damages issue in
bankruptcy court. Thus, even if, as Loder asserts, the
parties intended to replace the state court judgment with
the bankruptcy judgment, the state court judgment was
binding on the Bankruptcy Court as to the amount of debt
owed.3 Indeed, the Bankruptcy Court was only authorized
to determine whether the debt owed was
nondischargeable. This is exactly
3 When a federal court is “asked to give res judicata effect
to a state court judgment [it] must apply the res judicata
principles of the law of the state whose decision is set up
as a bar to further litigation.” Kizzire v. Baptist Health
Sys., Inc., 441 F.3d 1306, 1308 (11th Cir. 2006) (quoting
Amey, Inc. v. Gulf Abstract & Title, Inc., 758 F.2d 1486,
1509 (11th Cir. 1985)). Under Alabama law, consent
judgments have a preclusive effect. See Gilmore v. Jones,
97 So. 3d 764, 767 (Ala. Civ. App. 2012). what the
Bankruptcy Court consent judgment did.
12a

It found that Loder was indebted to Icemakers in the
amount of $5,652.22, the same amount agreed to by the
state court consent judgment, and that this was a
nondischargeable debt. Therefore, the Bankruptcy Court
correctly concluded that the only effect of the Bankruptcy
Court consent judgment was to render the $5,652.22 state
court judgment nondischargeable.
C.

Whether Icemakers Violated the Discharge Injunction
Only if a creditor willfully violates a discharge injunction
may it be held liable for contempt. See Hardy v. United
States (In re Hardy), 97 F.3d 1384, 1390 (11th Cir. 1996).
However, “the focus of the court’s inquiry in civil
contempt proceedings is not on the subjective beliefs or
intent of the alleged contemnors in complying with the
order, but whether in fact their conduct complied with the
order at issue.” See id. (quoting Howard Johnson Co. v.
Khimani, 892 F.2d 1512, 1516 (11th Cir. 1990)). Thus, the
Eleventh Circuit has adopted a two-part test to determine
whether a creditor willfully violated a discharge
injunction. A creditor may be found in contempt if it: (1)
knew of
4 Loder argues that if the Bankruptcy Court did not have
the authority to liquidate the creditor’s debt into a federal
money judgment that the entire Bankruptcy Court consent
judgment is void due to lack of jurisdiction. This argument
is without merit. “[D]eterminations as to the
dischargeability of particular debts” are core bankruptcy
proceedings. See 28 U.S.C. § 157(b)(2)(I). Thus, the
Bankruptcy Court had jurisdiction to enter the consent
judgment deeming Loder’s debt to Icemakers
nondischargeable.
the discharge; and (2) intended the actions which violated
the discharge. See id.
It is undisputed that Icemakers knew of Loder’s Chapter 7
discharge. However, under the Bankruptcy Court consent
judgment, the debt owed Icemakers was rendered
nondischargeable in the amount of $5,652.22. Thus, there
was no discharge injunction that prevented Icemakers
from collecting this debt. As a result, Icemakers’ efforts to
collect this debt amount were not actions which violated
13a

the discharge injunction. The same is true for Icemakers’
attempts to collect interest on Loder’s debt. Loder argues
that Icemakers’ efforts to collect interest at the 12%
interest rate agreed to by the state court judgment rather
than the federal interest rate provided by 28
U.S.C. § 1961 violated the discharge injunction. However,
the Court finds that the interest rate agreed to by the
parties in state court was discharged by the Bankruptcy
Court consent judgment. As mentioned above, to hold
otherwise would allow Loder to impermissibly relitigate
an issue that had already been decided in a final state court
judgment.
Loder also points to Icemakers’ alleged efforts to collect
$296.00 in duplicative state court costs and a $50 state
court summary judgment fee as evidence that Icemakers
violated the discharge injunction. This Court agrees with
the Bankruptcy Court that Loder has failed to present
sufficient evidence regarding Icemakers’ attempts to
collect these fees. Although the $296.00 in state court
costs is listed in the state court’s certificate of judgment,
nowhere in Icemakers’ 2017 motion to revive that
judgment did Icemakers state that it was seeking to collect
these costs. Further, the 2015 state court writ of
garnishment, while listing the state court costs of $296.00,
did not calculate these costs into Icemakers’ total claim
amount. (See Adv. Proc. 53-6 at 1.) The Court concludes
that this evidence is insufficient to support a finding that
Icemakers’ actions violated the discharge injunction.
Additionally, there is nothing in the record that would
suggest that Icemakers ever attempted to collect the
omitted $50 state court summary judgment fee. Thus,
Loder has failed to demonstrate that Icemakers violated
the discharge injunction.
In sum, the only question presented in this case is whether
Icemakers may be held in contempt for violating the
discharge injunction. This Court has determined that as a
matter of law it may not. Therefore, the Bankruptcy Court
is due to be affirmed.5
14a

IV.

MOTION TO STRIKE

Finally, the Court will address Loder’s motion to strike
Icemakers’ brief for failure to comply with Federal Rules
of Bankruptcy Procedure 8014(a)(6),

5 Because the Court has found that Icemakers’ actions did
not violate the discharge injunction, it need not address
Icemakers’ argument that the doctrine of equitable
mootness applies to this case.
8014(a)(8), 8012, and 8015(a)(7)(B).6 In his motion,
Loder asserts that Icemakers’ brief should be struck for
failure to cite to the record when making factual
assertions, to include a corporate disclosure statement, and
to contain a certificate of compliance. The Court has
already given Icemakers leave to amend its brief to
include the missing corporate disclosure statement and
certification of word count. (See Doc. 12.) Thus, the only
issue that remains is whether Icemakers’ brief should be
struck for failure to comply with Rules 8014(a)(6) and
(a)(8)’s requirements to make citations to the record.
Rule 8014(a)(6) provides that an appellant’s brief must
contain “a concise statement of the case setting out the
facts relevant to the issues submitted for review,
describing the relevant procedural history, and identifying
the rulings presented for review, with appropriate
references to the record.” Fed. R. Bankr. P. 8014(a)(6).
Rule 8014(a)(8) states that the argument section of the
brief “must contain . . . citations to the authorities and
parts of the record on which the appellant relies.” See Fed.
R. Bankr. P. 8014(a)(8). Rule 8014(b) requires an
appellee’s brief to conform to the same

6 Loder’s motion states that Icemakers’ brief should be
struck for failure to comply with Bankruptcy Rule
8015(a)(5)(C). However, there is no such rule. Thus, the
Court presumes that Loder is referring to Rule
15a

8015(a)(7)(B), which requires parties to include in their
brief a certificate that they have complied with the typevolume limitation.
requirements, but “unless the appellee is dissatisfied with
the appellant’s statement[,]” it is not required to include its
own statement of the case. See Fed. R. Bankr. P. 8014(b).
As Rule 8014(b) states that an appellee is not even
required to include a statement of the case within its brief,
the Court will not strike Icemakers’ brief for failure to
include citations to the record within this section of its
brief. Icemakers failure to include any citations to the
record when making factual assertions in the argument
portion of its brief is more problematic. By not citing to
the particular portions of the record that supported its
position, Icemakers made the Court’s job in deciding this
appeal more difficult. “Rule [8014] is not only a technical
or aesthetic provision, but it also has a substantive
function.” Matter of Gulph Woods Corp., 189 B.R. 320,
323 (E.D. Pa. 1995). Other courts have found that it is
appropriate to rule against a party “simply based on [the]
failure to comply with the rules governing bankruptcy
appeals.” Larsen v. Jendusa-Nicolai, 442 B.R. 905, 911
(E.D. Wis. 2010).
However, the Court concludes that Icemakers’ failure to
comply with the technical requirements for bankruptcy
appeals is not so deficient as to warrant the striking of its
brief. Icemakers did follow many of the other formalities
for bankruptcy appeals, and it would be inequitable to
allow Loder to win this appeal on a technicality.
Moreover, the Court independently looked at the record on
appeal when rendering this decision. Therefore, Loder’s
motion to strike is due to be denied.
16a

V.

CONCLUSION
For the reasons stated above, the Bankruptcy Court’s ruling
is AFFIRMED, and Loder’s motion to strike (doc. 9.) is
DENIED.
DONE and ORDERED on February 27, 2019.

L. Scott Coogler
United States District Judge

17a

APPENDIX D
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPELAS FOR
THE ELEVENTH CIRCUIT
Case No.: 19-10891 (Non-Argument Calendar)
LEE WENDELL LODER,
DEBTOR/PLAINTIFF/APPELLANT
v.
ICEMAKERS, INC,
CREDITOR/DEFENDAMT/APPELLEE
Filed: February 25, 2020
Before WILSON, GRANT, and ANDERSON, Circuit
Judges.
PER CURIAM:
Lee Loder appeals the district court’s judgment affirming
the bankruptcy court’s denial of his motion for contempt
sanctions against one of his creditors, Icemakers, Inc. Loder
alleges that Icemakers’s efforts to collect on a state court
judgment violated his Chapter 7 bankruptcy discharge order
and 11 U.S.C. § 524. After a careful review of the record
and the parties’ briefs, we conclude that there was an
objectively reasonable basis for Icemakers to believe that
its collection efforts were lawful. We therefore affirm.
I.

Icemakers sued Loder and his business in Jefferson County,
Alabama, in a dispute over leased equipment. The parties
reached a settlement, and in March 2007, the state court
entered a consent judgment in favor of Icemakers in the
amount of $5,652.22 (to be paid in installments) plus $296
in court costs. The judgment provided that, in the event of
default on the installment payments, postjudgment interest
would accrue at the state statutory rate of 12% per annum
18a

from the date of default. Loder defaulted almost
immediately on the installment payments.
Less than a month after Loder and Icemakers executed their
consent judgment in state court, Loder filed a Chapter 7
bankruptcy action, listing Icemakers as an unsecured
creditor. Icemakers filed an adversary proceeding in the
bankruptcy action, objecting to the dischargeability of
Loder’s debt to it. With the consent of the parties, the
bankruptcy court entered an order stating that “judgment is
hereby entered against Lee Loder in the amount of
$5,652.22” and further stating that “said judgment is nondischargable pursuant to the provisions of 11 U.S.C. §
523(a)(6).”1
Several years later, Icemakers made efforts to collect on the
state court judgment, seeking $5,652.22 plus $296 in costs
and 12% postjudgment interest. Loder filed a motion for
civil contempt and sanctions in the bankruptcy court,
arguing that Icemakers’s attempts to collect on the state
court judgment violated the bankruptcy discharge
injunction. Loder contended that the consent judgment in
the dischargeability proceeding replaced the state court
judgment, and that the state court judgment—with its
associated 12% postjudgment interest rate and state court
costs and fees—was discharged in bankruptcy.
The bankruptcy court found that the federal consent
judgment did not replace the state court judgment, but
merely determined that the debt embodied in the state court
judgment was nondischargeable. Accordingly, the
bankruptcy court concluded that Icemakers’s attempts to
collect the debt had not violated the

1 Section 523(a)(6) provides an exception from discharge
for debt “for willful and malicious injury by the debtor to
another entity or to the property of another entity.”

19a

discharge injunction and denied Loder’s motion for
contempt and sanctions. The district court affirmed, and
this appeal followed.
II.

In bankruptcy cases, we sit as a “second court of review,”
independently examining the bankruptcy court’s decision
and applying the same standards of review as the district
court. In re Issac LeaseCo, Inc., 389 F.3d 1205, 1209 (11th
Cir. 2004) (citation omitted). We review the bankruptcy
court’s denial of Loder’s motion for contempt and sanctions
for an abuse of discretion. See In re Roth, 935 F.3d 1270,
1274 (11th Cir. 2019); In re Diaz, 647 F.3d 1073, 1082
(11th Cir.
2011). “A bankruptcy judge abuses his discretion if he
commits an error of law or relies on factual findings that are
clearly erroneous.” Diaz, 647 F.3d at 1082.
III.

A “court may hold a creditor in civil contempt for violating
a discharge order if there is no fair ground of doubt as to
whether the order barred the creditor’s conduct. In other
words, civil contempt may be appropriate if there is no
objectively reasonable basis for concluding that the
creditor’s conduct might be lawful.” Taggart v. Lorenzen,
139 S. Ct. 1795, 1799 (2019) (emphasis in the original).
Loder does not dispute that he owed Icemakers $5,652.22,
or that that amount was nondischargeable pursuant to 11
U.S.C. § 523(a)(6). He therefore concedes, as he must, that
Icemakers’s attempts to collect the sum of $5,652.22 did

20a

not violate the discharge injunction. See Diaz, 647 F.3d at
1088 (the discharge injunction in 11 U.S.C. § 524(a)(2)
“does not apply to nondischargeable debts”; accordingly,
“holders of nondischargeable debts generally may attempt
to collect from the debtor personally for such debts”
(emphasis in the original) (citation omitted)). But Loder
contests Icemakers’s right to collect additional sums
referenced in the state court judgment, including interest at
the state statutory rate and costs and fees imposed by the
state court.
It was objectively reasonable for Icemakers to believe that
it could legally collect the interest, costs, and fees imposed
by the state court, for two reasons.
First, at least one federal circuit court has concluded that
where a prior state court judgment fixes liability for a debt,
“the bankruptcy court, in an adversary proceeding to
determine whether the debt is dischargeable, cannot issue
its own judgment on the debt to replace the state court
judgment previously obtained. All the bankruptcy court is
called upon, or authorized to do, is to determine whether or
not the state judgment is dischargeable.” In re Heckert, 272
F.3d 253, 257 (4th Cir. 2001). While we have not yet
addressed this precise issue in a published opinion, it is well
established that collateral estoppel principles bar the
relitigation in bankruptcy dischargeability proceedings of
issues previously litigated by the same parties and resolved
in a state court judgment. See Grogan v. Garner, 498 U.S.
279, 284 n. 11 (1991); In re St. Laurent, 991 F.2d 672, 675
(11th Cir. 1993); see also Unum Life Ins. Co. of Am. v.
Wright, 897 So. 2d 1059, 1082 (Ala. 2004). Because the
amount owed to Icemakers, including postjudgment interest
and court costs, was litigated by the parties and resolved in
the state court consent judgment, Icemakers had at least an
objectively reasonable basis for concluding that that issue
was not subject to relitigation in the bankruptcy court. Cf.
In re Bulic, 997 F.2d 299, 304 (7th Cir. 1993) (full faith and
credit statute required bankruptcy court to find that the
validity and amount of the creditor’s claim was established
in a prior state court judgment).

21a

Second, because the bankruptcy court determined—with
Loder’s consent— that Loder’s debt to Icemakers in the
amount of $5,652.22 was nondischargeable debt “for
willful and malicious injury by the debtor to another entity
or to the property of another entity” under 11 U.S.C. §
523(a)(6), Icemakers had some legal basis to conclude that
costs and interest applicable to that debt by agreement or by
operation of state law also were nondischargeable. “If a
creditor is able to establish the requisite elements of Section
523, the creditor is entitled to collect ‘the whole of any debt’
he is owed by the debtor.” TranSouth Fin. Corp. of Fla. v.
Johnson, 931 F.2d 1505, 1507 (11th Cir. 1991) (citation
omitted). “Debt” excepted from discharge under §
523(a)(6) is construed broadly to mean “any liability arising
from” the operative “willful and malicious injury by the
debtor.” Cohen v. de la Cruz, 523 U.S. 213, 220 (1998)
(emphasis added).
In TranSouth, we considered the “broad and expansive
reading” given to the term “debt” under the Bankruptcy
Code and concluded that “the ‘debt’ excused from
discharge in a successful Section 523 action would appear
to include a debtor’s contractual obligation to pay a
creditor’s attorney’s fees.” 931 F.2d at 1507 (citation
omitted). It follows that debt that is nondischargeable under
§ 523(a)(6) could include the debtor’s agreed-upon
obligation to pay postjudgment interest at a specified rate.
Supreme Court precedent also supports the conclusion that
debt excepted from discharge under § 523(a) may include
collateral losses arising from the debtor’s wrongful
conduct, such as attorney’s fees and costs. See Cohen, 523
U.S. at 220, 222. In Cohen, the Supreme Court held that §
523(a)’s discharge exception for fraud “bars the discharge
of all liability arising from fraud,” including state statutory
treble damages, attorney’s fees, and court costs associated
with a lawsuit to establish the debtor’s wrongful conduct.
Id. at 223. While not conclusive, these precedents support
Icemakers’s conclusion that the costs and postjudgment
interest provided in the state court consent judgment were
also nondischargeable and subject to collection.

22a

IV.
Given the state court consent judgment establishing the
amount of Loder’s debt to Icemakers—including court
costs and postjudgment interest—and the

bankruptcy court’s determination that
Loder’s
debt
to
Icemakers
was
nondischargeable, we cannot say that
Icemakers had “no objectively reasonable
basis for concluding that” its attempts to
collect the state court costs and interest
“might be lawful.” Taggart, 139 S. Ct. at
1799. We therefore conclude that the
bankruptcy court did not abuse its discretion
when it found that civil contempt sanctions
against Icemakers were not warranted. We
affirm.

AFFIRMED.

23a

APPENDIX E
IN THE UNITED STATES COURT OF
APPELAS FOR THE ELEVENTH
CIRCUIT
Case No.: 19-10891 (Non-Argument
Calendar)
LEE WENDELL LODER,
DEBTOR/PLAINTIFF/APPELLANT
v.
ICEMAKERS, INC,
CREDITOR/DEFENDAMT/APPELLEE
Filed: July 23, 2020
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN
BANC BEFORE: WILSON, GRANT and
ANDERSON,
Circuit
Judges.
PER CURIAM:
The Petition for Rehearing En Banc is
DENIED, no judge in regular active service
on the Court having requested that the Court
be polled on rehearing en banc. (FRAP 35)
The Petition for Panel Rehearing is also
denied. (FRAP 40)

24a

